WAIVER

Supreme Court of the United States

No. 20-7734
Imeh Affiah v. Texas Southmost College, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
wt am filing this waiver on behalf of all respondents.

QO Ionly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

1 am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

O Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature.

Date: Kove | Al a0a\
(Type or print) Name ak duavde G Gavza
Mr.

CMs. O Mrs. O Miss
Firm Es paven & Gavea, LLY
address V4 _E. Los Ebanos
City & State Avowwwsuille 1x tip _(8S30_
Phone 4Sle SUT*TIUTS Email eddie Despav ragar2 stom

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

Finch Affiah,, 12001 Club Creek De. #207 Houston ,Tslas 17030 (vig emrrr)
